GR-70-98-011
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
Office of Community Oriented Policing Services
Grants to the
City of Pittsburgh, Pennsylvania, Police Department
GR-70-98-011
 
June 26, 1998
 
* * * * *
 EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants
awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented Policing
Services (COPS), to the City of Pittsburgh, Pennsylvania, Police Department. The
Pittsburgh Police Department received about $4.3 million to redeploy 196 full-time
equivalents (FTEs) under the Making Officer Redeployment Effective (MORE) program. The
purpose of the redeployed officers is to enhance community policing. Originally, the
Pittsburgh Police Department was awarded an additional $2.1 million to hire 29 additional
sworn officers under the Phase I program and Accelerated Hiring, Education, and Deployment
(AHEAD). However, these funds were never used and the Pittsburgh Police Department
withdrew from the Phase I and AHEAD programs. 
The Pittsburgh Police Department violated the following grant conditions.


The Police Department claimed costs of about $2 million for computer equipment and
    related professional services for the MORE 95 and MORE 96 grants, which were not
    adequately supported. Additionally, the Police Department claimed costs of $56,541 for
    furniture and professional services, which were not allowable under the grant.
    Consequently, we question about $2 million in grant reimbursements.


The Police Department claimed matching costs of $837,062, which either did not qualify
    to be used as local match under grant conditions or were unsupported. 


The Police Department maintained excess grant funds in an interest bearing account
    earning $10,526 in interest.

These items are discussed in the Findings and Recommendations section of the report.
Our scope and methodology appear in Appendix II.
#####